OFF
  FICE OF IN
           NSPE
              ECTO
                 OR GE
                     ENER
                        RAL


AUDIT OF USAIID/PA
                 AKIS
                    STAN
                       N’S 

ENTREEPRE
        ENEUURS PRO OJEC
                       CT 

AUDIT REPO ORT NO
                O. G-39
                      91-12-00
                             05-P
APRIL 20, 20
           012




ISLAM
    MABAD
        D, PAKIS
               STAN 

Office of Inspector Geeneral


April 20, 2012

MEMORA
     ANDUM

TO:	                USAID
                        D/Pakistan Mission Director, Andrew
                                                          w B. Sisson

FROM:	              Office
                         e of Inspecto
                                     or General/Pakistan Actin
                                                             ng Director, Michael Hutchinson /s/

SUBJEC
     CT:	           Audit of USAID/Paakistan’s En
                                                ntrepreneurss Project
                    (Repoort No. G-391-12-005-P))

This mem
       morandum trransmits ourr final reportt on the subjject audit. In
                                                                      n finalizing the report, we
considere
        ed your com
                  mments and included you   ur response in Appendixx II.

The repo ort containss two recom mmendations to help i mprove the e Entrepreneurs Projecct.
Based on informatio  on provided by the mis ssion and U SAID’s Officce of Econoomic Growth h,
managem ment decisions have been reached on the report’s re      ecommendattions. Pleasse
coordinate final actio
                     on with the Audit Performance and Compliance e Division in the Office of
the Chieff Financial Officer.

I want to thank you and your sta
                               aff for the co
                                            ooperation a nd courtesie
                                                                    es extended
                                                                              d to us durin
                                                                                          ng
this auditt.




U.S. Agency for International Development
American Emmbassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan  n
www.usaid.g
          gov/oig
CONTENTS

Summary of Results ................................................................................................. 1 


 Audit Findings


     Project Made Progress in Compliance and Technical Training ............................ 3 


     Project Did Not Measure Change in Beneficiaries’ Incomes to

     Assess Impact ....................................................................................................... 5 


     Project Made Little Progress in Developing the Honey Sector ............................. 6


Evaluation of Management Comments................................................................... 8 


Appendix I – Scope and Methodology .................................................................... 9 


Appendix II – Management Comments ................................................................. 11 

SUMMARY OF RESULTS 

According to USAID/Pakistan, the country faces economic challenges that threaten its
stability and limit business development. Small and medium-sized businesses constitute
90 percent of Pakistani firms, employ 78 percent of the nonagricultural workforce, and
contribute more than 3 percent of gross domestic product. Loan requirements for
businesses have become stringent, imports have become expensive, and the
unemployment rate is rising. To help address these challenges, USAID/Pakistan initiated
the Entrepreneurs Project in June 2009. It awarded a 5-year, $30 million cooperative
agreement to Mennonite Economic Development Associates to significantly increase the
incomes of 120,000 predominantly female owners of microenterprises (microentrepreneurs)
in 20 districts in Pakistan.

In March 2011, the mission modified the project’s goal in response to a shift in U.S.
Government strategy because of changing conditions in Pakistan—namely, the
displacement of more than a million people in the Swat Valley as a result of conflict and the
devastating floods of 2010 throughout Pakistan. The initial project goal of increasing the
incomes of 120,000 microentrepreneurs was reduced to 75,000.

To achieve the goal by June 2014, the project focuses on developing value chains in four
sectors—dairy, embellished fabrics, medicinal and aromatic plants, and honey. Value
chains take products from raw materials to processing and ultimately to distribution and sale.
The value chain concept is based on the premise that when the microentrepreneurs are in
control of this process, they earn higher incomes.

The project is being implemented with local partners, the majority of which have limited work
experience with USAID. Also, since the value chain concept is relatively new in Pakistan,
local partners have limited capacity in applying it. The project seeks to build capacity by
providing formal and on-the-job training to partners. Partners, in turn, provide training to
predominantly female microentrepreneurs in finance, product design, marketing, and quality
assurance in the four sectors. Examples of training by sector are:

•	 Taking proper care of dairy animals to increase milk quality and yield.

•	 Designing fabrics, determining color palettes, and determining cost and pricing in the
   embellished fabrics sector.

•	 Identifying high-value medicinal and aromatic plants and collecting and processing them
   using improved preservation and storage techniques.

•	 Applying better harvesting techniques, preventing disease in honeybees, and introducing
   affordable beehives that will lead to increases in honey production.

Furthermore, having helped improve the products with the above training, the project helps
microentrepreneurs target the right markets and sell their products to maximize profits.

USAID’s Office of Inspector General in Pakistan (OIG/Pakistan) conducted this audit to
determine whether USAID/Pakistan’s Entrepreneurs Project made progress in building the
capacity of local partners and expanding opportunities for microentrepreneurs.

                                                                                            1
The project provided compliance and technical training (page 3). First, the project has
provided training to local partners on USAID’s administrative requirements related to
financial management, procurement, and human resources. Second, local partners have
received technical instruction in the value chain concept to enable them to help
microentrepreneurs expand opportunities by improving their commodities’ quantity, quality,
and marketability. The project trained more entrepreneurs than expected in business
development, achieving 123 percent of its target, and achieved 80 percent of its target for
providing training in business management and marketing.

However, building capacity in developing value chains did not start until May 2011, almost
2 years after the award. Two factors contributed to the delays. First, USAID/Pakistan used
project resources to provide assistance to internally displaced persons in Swat as a result of
conflict and the devastating floods of 2010. Mission officials acknowledged this work
diverted time and resources from the project’s activities, as no additional funding was
provided to cover the costs. Approximately $4 million was allocated to this assistance work.
Second, local partners’ lack of awareness of the value chain concept caused delays in
implementing the project. Specifically, the project undertook a laborious process for
selecting and training local partners before work could begin to help microentrepreneurs. As
of December 2011, only $6.6 million had been allocated to helping microentrepreneurs
develop value chains.

In addition, the audit disclosed the following challenges to achieving the overall project goal
of substantially increasing microentrepreneurs’ incomes:

•	 The project did not measure the change in beneficiaries’ incomes to assess project
   impact (page 5). Although the project collected baseline income data when registering
   beneficiaries, USAID/Pakistan had not yet begun tracking changes in beneficiaries’
   income. As of February 2012, no information was available to determine whether the
   project has succeeded in increasing microentrepreneurs’ incomes.

•	 The project made little progress in developing the honey sector (page 6). The mission
   took longer than expected to approve the local partner’s grant application and then
   required a feasibility study to determine the best bee species to use and explain why
   bees in the target area died in the recent past. The lack of progress makes it unlikely
   that the project will achieve its objective for this sector on schedule.

Therefore, the report recommends that USAID/Pakistan:

1. D
   	 evelop and implement a framework to collect information about changes in
   beneficiaries’ sales and incomes. The information should be stored in a standardized
   format and should be updated routinely so that well-timed project assessments can be
   performed (page 5).

2. 	 Develop and implement an action plan to increase the pace of development in the honey
     sector, or redefine or revise the activity objectives (page 7).

Detailed findings follow. A description of the audit scope and methodology appears in
Appendix I. Full text of management comments appears in Appendix II, and our evaluation
of management comments is included on page 8.



                                                                                             2
AUDIT FINDINGS

Project Made Progress in
Compliance and Technical Training
In accordance with Modification 7 of the cooperative agreement, a key component of the
USAID/Pakistan’s Entrepreneurs Project is to build the capacity of selected partners in
developing value chains in four sectors—dairy, embellished fabrics, medicinal and aromatic
plants, and honey. The value chain concept traces products from raw materials to
processing and ultimately to distribution and sale. The project seeks to build capacity by
providing formal and on-the-job training to the partners. These partners, in turn, provide
instruction to predominantly female microentrepreneurs in finance, product design,
marketing, and quality assurance in the four sectors.

Capacity building consists of two types of training. One is to train the partners on
compliance with USAID’s requirements for financial management, procurement, and human
resources so that partners can receive and administer USAID funds. This type of training
strengthens the partners’ operations by imparting best practices and organizational models.
The other is technical training of the partners and the microentrepreneurs to improve the
quantity, quality, and marketability of their products.

As of December 2011, the project had made progress in building the capacity of the
partners. For example, seven of the nine local partners were awarded subgrants as a result
of completing compliance training. The project also provided extensive technical training to
these partners and the microentrepreneurs. For example, a team of international experts
provided 5 days of training to 15,000 producers on improved production practices in dairy,
embellished fabrics, medicinal and aromatic plants, and 201 female sales agents received
training in the basics of business management, product design, and marketing.

Table 1 shows the two key targets for technical training and the corresponding results.

                    Table 1. Technical Capacity Building for 2011 (unaudited)

                 Indicator                            Target                       Result
  Number of microenterprises receiving
                                                      18,750                       23,002
  business development services
  Number of microentrepreneurs trained
  in the basics of business management                18,750                       14,923
  and marketing

Note: Targets are those shown in the project’s latest annual implementation plan for 2011; the results
come from the progress report for the quarter ending December 2011.

The 2011 target was to train 18,750 microentrepreneurs in the basics of business
management and marketing to improve the quality of the products. The project trained
14,923 people out of 18,750, meeting 80 percent of its target.




                                                                                                    3
                                 ations in Khy
During our field visits to 15 loca           yber Pakhtunkhwa (whe      ere we took the followinng
photo), Punjab, and Sindh Prov   vinces, we ffound that b eneficiaries appreciated  d the trainin
                                                                                                ng
they received through the projject. Furthe  er, some be   eneficiaries said their incomes ha    ad
increasedd because of the te     echnical training. In th  he three sectors reviiewed—dairyy,
embellishhed fabric, and medicinaal and aroma atic plants—
                                                         —beneficiarie es gave positive feedbacck
about thhe training and wanted   d more tech hnical supp  port from the project. Additionallyy,
beneficia
        aries said thhat through project inteerventions th hey have established contacts witth
buyers at regional annd national le
                                  evels and arre able to se
                                                          ell their produ
                                                                        ucts at bette
                                                                                    er prices.




       ber Pakhtunk
 In Khyb          khwa, a womman engaged in the embe  ellished fabriics sector dis
                                                                                 splays a
 handbaag made usin
                  ng a project-provided patttern. (Photo
                                                       o by OIG/Pak kistan, December 2011)


Despite the progress
                   s in training
                               g made thuss far, the pro
                                                       oject faces challenges. According to
USAID/PPakistan, the
                   e reasons fo or not achie
                                           eving the in
                                                      ntended targget of trainin
                                                                               ng all 18,75
                                                                                          50
microentrepreneurs in business managemen   nt and markeeting are:

•	 The newness of the value ch
                             hain conceptt to the partn
                                                      ners and miccroentrepren
                                                                             neurs and the
                                                                                         e
   time-consuming coaching the
                             ey require onn it.

•	 Lack of familiaritty with USAID’s requirements for grants complliance, procu
                                                                              urement, an
                                                                                        nd
   monittoring and evaluation.

•	 Lack of familiarity
                     y with state-o
                                  of-the-art da
                                              atabases use
                                                         ed by the pro
                                                                     oject.

•	 Restrricted mobilitty for women
                                 n because of local norm
                                                       ms.

•	 Volattile security situation in areas where the project is implemen
                                                                     nted.

Although
       h the projec
                  ct made proogress on itts training g oals, the areas below w need to be
improved
       d to achievee the overa
                             all project goal of subsstantially inccreasing the
                                                                              e incomes of
75,000 microentrepre
                   eneurs by Ju
                              une 2014.




                                                                                                4
Project Did Not Measure Change
in Beneficiaries’ Incomes to
Assess Impact
USAID’s Performance Monitoring and Evaluation TIPS No. 6, “Selecting Performance
Indicators,” states that an important criterion for an indicator is its directness, “the extent that
it clearly measures the intended result.” According to the cooperative agreement, the core
objective of the project is to increase the incomes of 75,000 microentrepreneurs. Thus, the
primary direct measure of performance is change in income, on which data should be
collected periodically to provide timely feedback in management decision making.

Although the project collected baseline income data when registering beneficiaries,
USAID/Pakistan did not develop a clear framework to track beneficiaries’ income changes.
OIG/Pakistan visited 15 locations in various parts of Pakistan from December 20 to
December 30, 2011. Beneficiaries said their incomes had increased because of project
interventions. However, partners were not collecting data regarding changes in income,
even though the data was available. For instance, local milk collectors maintained weekly
collection records and amounts owed to beneficiaries. However, this data was not being
accumulated and stored by partners. Hence, complete, reliable, detailed data regarding
income was not available to project managers to measure progress in increasing incomes of
the microentrepreneurs.

The mission has set a target of increasing the incomes of 75,000 beneficiaries. Because
during the planning phase of the project, the mission overlooked the need for collecting and
measuring changes in incomes, the project lacked a standardized method to collect this
information across the four sectors. The lack of standardization may limit the data’s value in
determining project effectiveness.

Without periodically collecting and recording data on change in income, the project’s primary
performance indicator, the mission may not be able to make timely adjustments, if needed,
to project implementation. Mission officials informed us that they are developing a
framework that will track increases in income. This effort will involve hiring an external
organization to conduct a survey on changes in incomes of beneficiaries. However, this
survey will be conducted only twice: midway and toward the end of the project. This
approach by itself may not provide a timely measure of the project’s success. For instance,
according to the annual work plan, one of the principal goals was to achieve sales of
approximately $1.2 million by the end of 2011; because it did not track and periodically
measure the changes in sales, the mission may not be able to determine how much of this
target was achieved. To ensure that changes in income can be properly evaluated, we
make the following recommendation.

   Recommendation 1. We recommend that USAID/Pakistan develop and implement
   a process to collect information about changes in beneficiaries’ sales and incomes.
   The information should be stored in a standardized format in a database and be
   updated routinely so that well-timed project assessments can be performed.




                                                                                                  5
Project Made Little Progress in
Developing the Honey Sector
The 2011 annual implementation plan states that 1,000 beneficiaries should be trained in
beekeeping and achieve sales of $19,200 in 2011. Further, the local partner’s subgrant
approved by USAID/Pakistan requires identification of 200 community sales agents and
50 lead community agents by January 2012 for assisting beneficiaries in selling honey
products.

The audit found that little progress had been made in the honey sector because of the
delayed approval of the subgrant by the mission. From the time the local partner was
selected by the project in December 2010, it took approximately 10 months for the mission
to approve the subgrant in October 2011—more than double the budgeted timeline of 5
months under the 2011 annual implementation plan. Further, the audit noted that from the
signing of the contract in October 2011 through February 2012, about 16 weeks later, the
local partner issued only two weekly reports, and no substantial work had been performed
as of February 2012. Table 2 summarizes the lack of progress made toward some key
targets.

                 Table 2. Lack of Progress in Honey Sector (unaudited)

                                     Target                       Results
                 Formation of 100 interest groups                    4
                 Identification of 200 community sales agents        0
                 Training of sales agents                            0
                 1,000 skilled beekeepers trained                    0


Mission officials informed us that the approval process is lengthy because a thorough
evaluation of the local partner is necessary. Value chain development is a relatively new
concept in Pakistan, and because of the novelty of this approach in the honey sector, the
local partner needed help developing the appropriate subgrant that would comply with
USAID policies. Further, the due diligence performed by the agreement officer regarding the
partner selection process pushed back the approval of the subgrant. In addition, the local
government raised quality concerns regarding tool kits provided to local honeybee farmers
by the partner under a previous humanitarian assistance activity. Mission officials stated
that, to address these concerns, the project had to provide clarity and additional background
information to the mission, thus lengthening the approval period. Mission officials also
commented that progress was slow after approval because of a feasibility study that is being
conducted to (1) determine the specific cause of the death of bees in the past in the target
area and (2) identify which species would be best for small traditional beekeepers to use to
achieve the objective.

We believe that the mission should have conducted this feasibility study before deciding to
develop the honey sector. Both implementing partner and mission officials agreed that work
in the honey sector is lagging and needs to accelerate to enhance the incomes of 1,000
beekeepers through value chain development activities by March 2014.



                                                                                           6
To address the delay, we recommend the following.

   Recommendation 2. We recommend that USAID/Pakistan develop and implement
   an action plan to increase the pace of development in the honey sector or redefine or
   revise the activity objectives.




                                                                                           7
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Pakistan agreed with the findings and two recommendations in the report.
Concerning the report’s finding that the project made little progress in developing the honey
sector, the mission remarked that the audit might not have accounted fully for challenges in
selecting a suitable partner that could operate in the remote areas of Khyber Pakhtunkhwa.
We believe the audit fully addresses this concern on page 6 of this report.
Based on our evaluation of USAID/Pakistan’s management                  comments    (below),
management decisions have been reached on the recommendations.
Recommendation 1. USAID/Pakistan agreed to develop and implement a process to
collect information about changes in beneficiaries’ sales and incomes. The mission plans to
have this process fully functional by October 31, 2012. Accordingly, a management
decision has been reached on Recommendation 1.

Recommendation 2. USAID/Pakistan agreed to develop an action plan to increase the
pace of development in the honey sector. The plan is to be implemented by August 30,
2012. Accordingly, a management decision has been reached on Recommendation 2.

The Audit Performance and Compliance Division will make a determination of final action on
completion of the planned corrective actions for the two recommendations. The mission’s
written comments on the draft report are included in their entirety as Appendix II.




                                                                                           8
                                                                                  Appendix I



SCOPE AND METHODOLOGY

Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s Entrepreneurs
Project made progress to build the capacity of local partners and expand opportunities for
microentrepreneurs. The cooperative agreement for this project started June 2009 and is to
end on June 2014. This audit focused on building the capacity of selected partners in value
chain development from June 2009 through February 2012. As of December 2011,
USAID/Pakistan has obligated and expended approximately $22 million and $11.5 million,
respectively, for this project.

The audit covered activities from June 2009 through February 2012. The audit team
reviewed mission documents concerning project management, agreements, implementation
plans, progress reports, the monitoring and evaluation plan and procedures. Additionally,
the audit team conducted interviews with USAID/Pakistan project administrators,
implementing and local partner officials, and project beneficiaries.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to USAID/Pakistan’s Entrepreneurs Project, including Automated Directives
System Chapters 200 and 201 and supplemental guidance. The audit relied on the
following sources of evidence: the agreement; interviews with officials from the implementing
partner, local partners, and USAID/Pakistan, as well as from beneficiaries; and documents
maintained at the mission and at the implementing partner’s Islamabad headquarters. Audit
fieldwork was performed at the USAID/Pakistan mission and the implementing partner’s
main office located in Islamabad from October 25, 2011, through February 28, 2012.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the project and to ensure that USAID/Pakistan provided adequate
oversight of project activities. These controls included maintaining regular contact with the
implementing partner and reviewing project files.

Methodology
To answer the audit objective, the audit team interviewed officials in the mission’s Economic
Growth and Agriculture Office, which manages project implementation; the implementing
partner’s main country office; and local partners’ offices and beneficiaries. Through
interviews and documentation, the audit team obtained an understanding of (1) the project’s
main goals, (2) how performance indicators, targets, and baseline data were determined to
measure the progress of the project, (3) how the mission ensures the quality of the data
reported by the implementing partner, (4) how the mission monitors the implementation of




                                                                                           9
                                                                                    Appendix I


activities, and (5) whether the mission is aware of any allegations of fraud or other potential
illegal acts or noncompliance with laws and regulations.

To achieve these, the audit team reviewed the agreement and modifications, USAID
correspondence with the implementing partner, the 2011 implementation plan, and weekly
and quarterly project reports.       The audit team interviewed staff from USAID, the
implementing partner, and seven of the nine local partners. The audit team judgmentally
selected 15 locations and made site visits to Dir and Swat Districts in Khyber Pakhtunkhwa,
Sukkur and Larkana Districts and Karachi in Sindh, and Bahawalpur in Punjab between
December 20 and 30, 2011, and interviewed the entrepreneurs (beneficiaries) to determine
the impact of the training provided under this project.




                                                                                            10
                                                                                              Appendix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S




MEMOR
    RANDUM


Date:	           April 03, 2012


To:      	       Joseph
                      h Farinella
                 Director OIG/Pakisstan

From:        	   Andrew Sisson /s/
                 Missio
                      on Director

Subject: 	       Manag
                     gement Comm
                               ments on the Audit of USA
                                                       AID/Pakistan’’s Entrepreneurs Project

Referencee:      	Draft Report No. G-391-12-00X
                                              X-P dated Marrch 16, 2012



In responsse to the referrenced draft audit report, please find beelow Missionn managementt comments on
the recom
        mmendations included thereein.


Recommeendation No.. 1 We recom   mmend that USAID/Pakiistan develop  p and implem
                                                                                 ment a processs
to collectt informatio
                     on about cha  anges in beneficiaries’ sales and in
                                                                      ncomes. Thee informatioon
should bee stored in a standardizeed format inn a database,, and should
                                                                      d be updated
                                                                                 d routinely, so
that well--timed projecct assessmen
                                  nts can be perrformed.

Managem  ment commen    nts:
USAID/Pakistan concu    urs with the recommendatiion and agreees to develop and implemeent a process to
collect infformation about changes in beneficiariies’ sales andd income. In this respect, the Mission is
already working with    h the Indep  pendent Mon   nitoring and Evaluation Contractor to develop a
standardizzed databasee that will be periodicaally updated.. The databbase would help generatte
informatioon relating to
                       o impact in a timely fashio on and on a r egular basis.. In addition to the detaileed
survey wh hich will be conducted tw  wice, as also mentioned in the audit repport, sample surveys will be
carried ou                            oughout the teerm of the prroject to meassure impact and extrapolatte
          ut on a quarteerly basis thro
sales and incomes increases. This daatabase shoulld be fully funnctional by thhe end of Octoober 2012.




                                                                                                         11
                                                                                          Appendix II


Recommendation No. 2 We recommend that USAID/Pakistan develop and implement an action
plan to increase the pace of development in honey sector, or redefine or revise the activity
objectives.

Management comments:
Mission management concurs with the recommendation and agrees to develop an action plan to
increase the pace of development in the honey sector and revise the activity objectives.

The audit report notes that from the time the honey sub partner was selected by the primary partner to
the actual award of the grant, it took the Mission ten months to approve the sub-grant. Note that each
shortlisted candidate organization has to undergo a process of due diligence by the primary partner
during which the organization’s internal control, financial and human resource management systems
and technical capabilities are thoroughly evaluated and assessed. This process is in compliance with
the Mission approved grants manual and is often time intensive. The final sub-grantee is selected
based on the recommendations of this assessment. From the call for Expressions of Interests to the
signing of the sub-award can take up to 5-6 months. Honey sector under this project experienced
further delays due to reasons already mentioned in the audit report. However, in this respect, the
Mission would like to note that the audit may not have fully accounted for USAID/Pakistan’s efforts
to ensure that proper due diligence was performed to select a suitable local partner that would be able
to carry out the implementation of a promising but challenging project with the aim to develop the
honey value chain in remote areas of Khyber Pakhtunkhwa. There are not many local partners who
have the technical capacity to assess the favorability of the physical, agro-climatic, cultural, and
overall agricultural situation in Swat and surrounding areas for beekeeping and to identify the
requirements needed for a viable beekeeping business. Existing practices of Swat’s small traditional
beekeepers, production constraints and prevalence of diseases make apiculture a particularly
challenging area to work in which also explains slow implementation pace since the start of the
project.

The new action plan to increase the pace of development in honey sector will be completed, approved
and ready to implement by August 30, 2012.




                                                                                                    12
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
                    HU�����������������U
